PatTis & SMITH, LLC
383 ORANGE STREET, FIRST FLOOR
NEw HAVEN, CT 06511
TELEPHONE 203-393-3017
FACSIMILE 203-393-9745

NORMAN A. PATTIS, ESQ. (npattis@pattisandsmith.com)

KEVIN M. SMITH, ESQ. (ksmith@pattisandsmith.com)

ZACHARY E. REILAND, ESQ. (zreiland@pattisandsmith.com)

DONNA PEAT, OFFICE MANAGER (dpeat@pattisandsmith.com)
ERICA MEJIA, PARALEGAL (emejia@pattisandsmith.com)

CAMERON ATKINSON, LAW CLERK (catkinson@pattisandsmith.com)

No.__

DAVID G. LIEGENBUTH,
Petitioner

v.

STATE OF CONNECTICUT,
Respondent.

AFFIDAVIT OF SERVICE

I, Cameron L. Atkinson, of lawful age, being duly sworn, upon my oath state
that I did, on the 22nd day of January 22, 2021, deliver to the United States Postal
Office in North Haven, Connecticut 2 packages containing copies of the PETITION
FOR A WRIT OF CERTIORARI in the above captioned case. I further state that I
mailed them by Priority Mail, postage prepaid. The packages were addressed to:

Office of the Connecticut Chief State’s Attorney
Appellate Division

300 Corporate Place

Rocky Hill, CT 06067

Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
een y

Cameron L. Atkinson

Duly sworn to and subscribed before me this -) Qday of J enucepo20

ee ae see

NOTARY PUBLIC
